<html>
<title> - [H.A.S.C. No. 115-68] ADDRESSING PHYSIOLOGICAL EPISODES IN FIGHTER, ATTACK, AND TRAINING AIRCRAFT</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
                         [H.A.S.C. No. 115-68]

                   ADDRESSING PHYSIOLOGICAL EPISODES

                        IN FIGHTER, ATTACK, AND

                           TRAINING AIRCRAFT

                               __________

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                            FEBRUARY 6, 2018

                                     




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









                                   ______
		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
28-971                    WASHINGTON : 2019                 









                                     
  


              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                   MICHAEL R. TURNER, Ohio, Chairman

FRANK A. LoBIONDO, New Jersey        NIKI TSONGAS, Massachusetts
PAUL COOK, California, Vice Chair    JAMES R. LANGEVIN, Rhode Island
SAM GRAVES, Missouri                 JIM COOPER, Tennessee
MARTHA McSALLY, Arizona              MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           RUBEN GALLEGO, Arizona
TRENT KELLY, Mississippi             JACKY ROSEN, Nevada
MATT GAETZ, Florida                  SALUD O. CARBAJAL, California
DON BACON, Nebraska                  ANTHONY G. BROWN, Maryland
JIM BANKS, Indiana                   TOM O'HALLERAN, Arizona
WALTER B. JONES, North Carolina      THOMAS R. SUOZZI, New York
ROB BISHOP, Utah                     JIMMY PANETTA, California
ROBERT J. WITTMAN, Virginia
MO BROOKS, Alabama
                John Sullivan, Professional Staff Member
                  Doug Bush, Professional Staff Member
                          Neve Schadler, Clerk  
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Tsongas, Hon. Niki, a Representative from Massachusetts, Ranking 
  Member, Subcommittee on Tactical Air and Land Forces...........     3
Turner, Hon. Michael R., a Representative from Ohio, Chairman, 
  Subcommittee on Tactical Air and Land Forces...................     1

                               WITNESSES

Cragg, Clinton H., Principal Engineer, NASA Engineering and 
  Safety Center..................................................     4
Joyner, RDML Sara A., USN, Navy Physiological Events Action Team 
  Lead, U.S. Navy................................................     6
Nowland, Lt Gen Mark C., USAF, Deputy Chief of Staff for 
  Operations, U.S. Air Force.....................................     8

                                APPENDIX

Prepared Statements:

    Cragg, Clinton H.............................................    32
    Joyner, RDML Sara A..........................................    39
    Nowland, Lt Gen Mark C.......................................    52
    Turner, Hon. Michael R.......................................    29

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Gaetz....................................................    75
    Ms. Tsongas..................................................    73
    Mr. Turner...................................................    67











  ADDRESSING PHYSIOLOGICAL EPISODES IN FIGHTER, ATTACK, AND TRAINING 
                                AIRCRAFT

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Tactical Air and Land Forces,
                         Washington, DC, Tuesday, February 6, 2018.
    The subcommittee met, pursuant to call, at 3:30 p.m., in 
Room 2118, Rayburn House Office Building, Hon. Michael R. 
Turner (chairman of the subcommittee) presiding.

  STATEMENT OF HON. MICHAEL R. TURNER, A REPRESENTATIVE FROM 
  OHIO, CHAIRMAN, SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

    Mr. Turner. Everyone, take a seat. We are under the 
pressure of votes. They are going to happen sometime around 
4:00, 4:15, so we are going to try to make certain we get 
through everybody's statements and maybe some initial comments.
    So beginning with my opening comments, the subcommittee 
meets today to receive an update on how the Departments of the 
Navy and the Air Force are addressing physiological episodes 
[PE] in tactical and training aircraft. I would like to welcome 
our distinguished panel of witnesses. We have Mr. Clint Cragg--
is that correct? Okay--Principal Engineer from the NASA 
[National Aeronautics and Space Administration] Engineering and 
Safety Center [NESC]; Rear Admiral Sara Joyner, Physiological 
Episodes Action Team Lead for the U.S. Navy; and Lieutenant 
General Mark Nowland, Air Force Deputy Chief of Staff for 
Operations. I want to thank each of you for your service and 
for your important testimony today.
    For over 2 years now, this subcommittee has held briefings, 
hearings, and conducted site visits regarding the occurrences 
of physiological episodes, or PEs, in tactical and training 
aircraft. As I stated before, I believe Navy leadership was 
initially slow to respond to this issue that is having a direct 
effect on overall readiness and affecting the confidence of our 
pilots, as well as their ability to perform their missions.
    Because it is not just that these events are occurring; it 
is also the anxiety that these events occur in succession. As a 
result of the subcommittee's activity, the National Defense 
Authorization Act [NDAA] for fiscal year [FY] 2017 included 
legislation that required an independent report of the Navy's 
efforts to resolve these issues. That report was delivered to 
the subcommittee in mid-December, and a copy has been provided 
to members' offices.
    According to the report, the Navy was addressing the PE 
problem as an aircraft problem, not a human problem. We have to 
acknowledge that physiological episodes happen to people, not 
aircraft. I was just talking to the Secretary of the Air Force, 
and the human body as a sensor is perhaps different than just 
our technological sensors and can give us a gap in the 
information or data that we are receiving, but we have to trust 
those pilots, those human responses and reports that we are 
having of these issues.
    The report also concludes that the F/A-18 systems that 
support human health are ``complex, dynamic, and interactive.'' 
As a result, the more complex, dynamic, and interactive a 
system is, the more important it is to have a well-coordinated 
systems approach to design and operations.
    Finally, the report notes that the physiological episodes 
will persist in the F/A-18, and all high-performance aircraft, 
if there is a piecemeal approach to human systems integration. 
Our witness, Mr. Cragg, was the primary author of this report, 
and he is prepared to provide the subcommittee with a summary 
of the report's findings and recommendations.
    On September 15th of last year, Ms. Tsongas and I visited 
the Naval Air Station Pax [Patuxent] River to receive briefings 
on the root cause and corrective action processes from members 
of the Navy's Physiological Episodes Action Team [PEAT]. We 
spoke with engineers and pilots and learned about the Navy's 
process to find the root cause of these events. We were also 
briefed on the Navy's attempts to alert and protect the aircrew 
and monitor the system.
    Additionally, we spoke with engineers at some of the labs 
who are analyzing specific portions of the primary systems that 
make up the Environmental Control System, ECS, and the On-Board 
Oxygen Generating System, OBOGS. I believe the Navy has taken a 
step in the right direction by establishing a formal action 
team directly responsible for addressing physiological 
episodes. The team is led by our Navy witness today, Rear 
Admiral Joyner.
    However, despite these efforts, pilots are continuing to 
experience physiological episodes, and I am concerned about the 
increased frequency. For example, since the subcommittee's last 
event in May of last year, the Navy as well as the Air Force 
have continued to report incidences of PE in aircraft.
    This past summer, the Navy made the decision to ground T-45 
training aircraft due to increasing occurrences of pilots 
experiencing hypoxia symptoms in the aircraft. The decision was 
made after a significant number of instructor pilots at all 
three T-45 training locations refused to fly the aircraft due 
to safety concerns with the oxygen systems. It is an incident 
that we were very concerned about in this committee that would 
have to go to the level of the pilots themselves intervening 
and refusing to fly, prior to leadership understanding the need 
to intervene.
    The Air Force grounded F-35 Joint Strike Fighters [JSF] at 
Luke Air Force Base in June of last year due to oxygen 
problems, and the F-35 fleet has experienced 29 physiological 
episodes to date.
    In early December of last year, the subcommittee was 
informed that 13 A-10 aircraft at Davis-Monthan Air Force Base 
have been grounded due to problems with the oxygen systems. And 
just last week, the Air Force grounded all T-6 training 
aircraft at six operating locations due to an increasing rate 
of unexplained physiological episodes in the T-6 aircraft.
    There is no doubt this remains a complex problem to solve 
that requires a well-coordinated systems approach to include 
all factors, such as the aircraft, the pilot, and the 
environment. So in closing, we need to be reassured that this 
remains a top priority for the Navy and the Air Force and that 
the two services are coordinating efforts and that such a 
systems approach to solve this problem is being taken.
    The increasing frequency of these physiological episodes is 
having a direct effect on overall readiness, and as such we 
expect to receive your professional assessments on what we as 
members of this subcommittee can do to help you address this 
critical problem. In addition to effects on readiness, this has 
a direct correlation and effect on morale.
    Before we begin with witnesses' opening statements, I would 
like to turn to my good friend from Massachusetts, Ms. Niki 
Tsongas, for any comments that she may want to make.
    [The prepared statement of Mr. Turner can be found in the 
Appendix on page 29.]

     STATEMENT OF HON. NIKI TSONGAS, A REPRESENTATIVE FROM 
MASSACHUSETTS, RANKING MEMBER, SUBCOMMITTEE ON TACTICAL AIR AND 
                          LAND FORCES

    Ms. Tsongas. Thank you, Mr. Chairman, and good afternoon to 
our witnesses. It is good to have you here. And I want to thank 
Chairman Turner for holding this hearing and continuing the 
subcommittee's focus on this really important issue.
    One of the reasons for today's hearing is a completion of 
the independent review of the Navy's efforts to address 
persistently high rates of physiological episodes experienced 
by aviators in F/A-18 aircraft, a critical issue since these 
episodes can put a pilot's life at risk.
    The review was mandated by the fiscal year 2017 NDAA and 
conducted by the NASA Engineering and Safety Center under the 
leadership of Mr. Clinton Cragg, who is here with us today, and 
I would like to thank you, Mr. Cragg, and your entire team for 
your diligent work on the report.
    I am also pleased that Rear Admiral Joyner is with us 
today, but I must point out that the Navy has decided to move 
the Admiral out of her current position overseeing the 
service's response to physiological episodes after less than a 
year in the position. While I understand that the Navy is 
working to find another talented officer to take over the 
position, I do believe that making the change so soon sends an 
unfortunate message to the entire Navy aviation community, 
including their families. This important issue deserves unified 
leadership and I would urge Navy leadership to prioritize 
continuity in this position moving forward.
    After reviewing the report, it appears its findings and 
recommendations fall into three broad categories. First, it 
makes several findings and recommendations related to the, 
quote, ``human factors'', unquote, underlying the Navy's 
physiological episode problem. The report states upfront that, 
quote, ``Physiological episodes happen to people, not 
aircraft'', unquote. It goes on to point out numerous areas 
where human factors research, data gathering, and testing is 
needed to provide a true end-to-end understanding of the 
problem. I will have several questions on some of the issues 
raised in the report in this area.
    Second, the report points out several specific concerns 
with the design and specifications of the F/A-18 aircraft 
related to aircrew life support. It places particular attention 
on the aircraft's oxygen generation and cabin pressure systems, 
raising significant questions regarding both.
    Finally, the report examines internal Navy organizational 
challenges that may be making it much harder to address the PE 
issue. In particular, the report focuses attention on the need 
for the Navy's medical community to be more tied into the 
Navy's ongoing lines of effort.
    And of special concern to me, given what we learned about 
the situation the Navy faced this summer in its T-45 training 
community, the report also raises concerns about, quote, ``a 
breakdown of trust in leadership within the pilot community,'' 
unquote, regarding the Navy's efforts on this issue.
    I know that hundreds of dedicated people in the Navy are 
working very hard to address this problem. But the report 
points out that we have a long way to go and that in some areas 
we can do much, much better. I am hopeful that the Navy is 
carefully examining the findings of this report and acting on 
them as quickly as possible and hope to learn more on this 
front today.
    The other reason for today's hearing is to get an update 
from the Air Force on its challenges with its own physiological 
episodes, most recently in F-35A, A-10s, and T-6A aircraft 
fleets. In the case of the T-6A, the Air Force's fleet remains 
grounded. We need to know the full story of what happened and 
how the Air Force plans to stay ahead of this problem moving 
forward. I look forward to today's testimony and yield back.
    Mr. Turner. Thank you, Ms. Tsongas. Without objection, all 
our witnesses' prepared statements will be included in the 
hearing record.
    Mr. Cragg will begin, followed by Admiral Joyner and 
General Nowland. Mr. Cragg.

    STATEMENT OF CLINTON H. CRAGG, PRINCIPAL ENGINEER, NASA 
                 ENGINEERING AND SAFETY CENTER

    Mr. Cragg. Chairman Turner, Ranking Member Tsongas, and 
members of the subcommittee, thank you for this opportunity to 
discuss the NASA Engineering and Safety Center's, or NESC's, 
independent assessment of the Navy's efforts to understand and 
mitigate the F/A-18 fleet physiological episodes.
    Mr. Turner. I am sorry, sir. If I could interrupt you for a 
second, if you could move that microphone to in front of you, 
because we are not hearing you-- they are directional. If you 
could point it at you, there you go. Thank you.
    Mr. Cragg. Too complicated for me. I am honored to be 
serving as the lead for this NESC team. The NESC performs 
independent testing, analysis, and assessments to help address 
some of NASA's tougher challenges.
    We can draw upon technical experts from all 10 NASA 
centers, from industry, from academia, and other governmental 
agencies. This allows us to bring the country's best experts to 
bear on the problems and challenges of NASA programs.
    In February 2017, the U.S. Navy's Naval Air Systems Command 
requested NASA's assistance in assessing the Navy's efforts to 
understand the causes of physiological episodes affecting 
aircrew on their F/A-18 fleet. In March of 2017, the NESC 
assembled a multidisciplinary team with a broad range of 
expertise that included flight surgeons, life support system 
experts, engineers, and several subject matter experts.
    In the course of this investigation, the team reviewed data 
from a variety of sources, visited multiple manufacturing sites 
and Navy commands, and held numerous discussions with 
knowledgeable personnel. The NESC team's findings and 
recommendations are based on this data and not an exhaustive 
review of all F/A-18 documentation.
    To address the complex causes of physiological episodes, 
the NESC team used a multi-systems trends analysis approach and 
formed the following resulting findings. First and foremost, 
physiological episodes are a human phenomenon. Although the 
Navy has put a significant effort into investigating the 
physiological episodes, the bulk of their efforts to date have 
been directed at the aircraft, rather than human physiology. 
Centering our investigation on the human element revealed new 
information about the character of physiological episodes.
    Second, hypoxia--determined to be the most prevalent cause 
of physiological episodes--is not a condition of insufficient 
oxygen in the breathing gas. It is insufficient delivery of 
oxygen to tissues of the body, importantly, the brain.
    Third, a key reliable On-Board Oxygen Generating System 
performance is uniform operating conditions, which the F/A-18 
design and dynamic operating environment rarely provides.
    Fourth, the F/A-18 program has a large amount of aircraft 
performance data, but a shortage of evidence related to human 
health and performance in an F/A-18 environment.
    Fifth, the F/A-18 systems that support human health are 
complex, dynamic, and interactive. This requires a well-
coordinated systems approach to design requirements, 
interfaces, and operations.
    Finally, an unacceptable number of physiological episodes 
will persist in the F/A-18 program if there continues to be a 
piecemeal approach to the human systems integration.
    The NESC team made the following observations regarding the 
Navy processes. Until recently, the absence of a single leader 
to coordinate and prioritize the Navy's physiological episodes 
efforts resulted in organizational stove-piping and exclusion 
of key stakeholders. Investigations have been structured as if 
the physiological episodes were isolated events, rather than a 
series of related events.
    Furthermore, troubleshooting efforts used a top-down 
approach that emphasized component-level behaviors instead of 
evaluating the performance of the system as a whole. In this 
case, the system means the aircraft, the pilot, and the 
environment.
    The NESC team asserts that a dedicated, coordinated, cross-
organizational, and cross-discipline program--under the 
direction of a single leader with clearly defined authority--
would improve the U.S. Navy's effectiveness in finding and 
fixing the causes of physiological episodes.
    The NESC team has identified a number of near- and long-
term recommendations. Near-term tasks are focused on gathering 
key evidence about human health and performance and 
understanding hypoxia in the F/A-18 flight environment. Long-
term tasks which may provide substantial benefit include 
utilizing a data-driven causal analysis effort, updating the F/
A-18 to conform to MIL-STD-3050 [Military Standard], and 
developing a systems-level understanding of bleed air 
management systems.
    In conclusion, and although key data is lacking, the NESC 
believes that the majority of F/A-18 physiological episodes are 
a result of hypoxia. This hypoxia, it is believed, is caused by 
a combination of issues affecting the various stages of oxygen 
delivery process, including those stages within the human.
    We applaud the Navy's efforts to gather the necessary data 
to resolve these issues. The NESC report has provided a 
conceptual framework to view the issue of physiological 
episodes in a new light and offers recommendations that may 
guide future processes and technological improvements.
    I thank you for the opportunity to testify before the 
subcommittee and look forward to your questions.
    [The prepared statement of Mr. Cragg can be found in the 
Appendix on page 32.]
    Mr. Turner. Admiral Joyner.

   STATEMENT OF RDML SARA A. JOYNER, USN, NAVY PHYSIOLOGICAL 
               EVENTS ACTION TEAM LEAD, U.S. NAVY

    Admiral Joyner. Mr. Chairman, Representative Tsongas, and 
distinguished members of the subcommittee, thank you for the 
opportunity to appear before you today to discuss the 
Department of the Navy's ongoing efforts to address 
physiological episodes, or PEs, in fighter and attack and 
training aircraft.
    Addressing PEs remains the Navy's number one safety 
priority and encompasses naval and Marine Corps aviation 
communities. We have implemented numerous technical and 
operational measures to mitigate the risk to our aircrew. 
Utilizing every resource available to resolve these issues, the 
Department of the Navy has engaged a broad spectrum of internal 
and external partners, including subject matter experts from 
the United States Air Force, National Aeronautics and Space 
Administration, Federal Aviation Administration, industry, 
academia, medical communities, and the Navy's dive communities. 
In addition, we have established regular fleet communication to 
share all data and progress related to PEs.
    I would like to first focus on the efforts of the 
Physiological Episodes Action Team, or PEAT. In April 2017, the 
Chief of Naval Operations directed a comprehensive review of 
PEs be conducted. As a result, the PEAT was formed to serve as 
a single-source Navy and Marine Corps entity which unites both 
Department of Defense [DOD] and non-DOD entities as a cohesive 
force to combat PEs.
    The PEAT follows three lines of effort: Warn the aircrew, 
fix the machine, protect and prevent. Our efforts rely on 
understanding of an inherently challenging environment 
encountered at altitude and its effects on the human body.
    The PEAT has served to synchronize efforts to resolve 
physiological episodes between NAVAIR [Naval Air Systems 
Command], Commander Naval Air Forces, Bureau of Medicine and 
Surgery, the Naval Safety Center, our industry partners, and 
academia.
    Coordinating multiple agencies, the PEAT's focus is on 
finding the root causes of PEs, correcting deficiencies that 
they are identified, and equipping existing agencies with long-
term resources to address PE issues effectively.
    Additionally, the PEAT is responsible for providing timely 
information to aircrew and maintainers regarding past PEs, 
present research, ongoing mitigation efforts, and future plans. 
Direct fleet engagement has been established where 
representatives from the PEAT, NAVAIR, and the Naval Safety 
Center are available for frank and direct dialogue with 
aircrew, providing an open forum between warfighters and 
leadership.
    We provide a response triage reports to aircrew to improve 
feedback and communication. These efforts combined have made a 
great impact in restoring aircrew confidence in their equipment 
and the efforts to resolve the PE problem.
    Why haven't we solved the issue yet? Our incredibly 
talented engineers at NAVAIR have worked diligently to ensure 
the aircraft are operating according to required specifications 
and that material solutions met engineering requirements. As 
our aircraft capabilities have advanced, we have encountered 
challenges in how to best support the human in the cockpit in 
an ever more dynamic environment.
    Today, we benefit from oxygen systems that no longer limits 
prolonged operations. Rather it is limited only by the 
constraints of fuel, ordnance, and human endurance. Routinely 
operating for 8 hours or longer on a combat mission, by flying 
higher, faster, and longer, we have come to realize that there 
are aspects of our operational environment that need to be more 
fully understood.
    The NASA report was valuable in reminding us that we need 
to consider not just what we were most comfortable with 
addressing--the engineering elements--but also the human 
performance element of the aviation environment.
    The effects of pressure and breathing gas composition on 
the human body. It became apparent that in order to discover 
physiological episode root causes, we needed to start with the 
human, the aviator, and the cockpit. The close relationship 
between our aeromedical specialists and our engineers had 
atrophied, and we are working actively to restore this 
relationship in combatting PEs.
    Today we acknowledge that there is more we need to learn 
about human physiology in a pressurized environment and 
incorporate that into our engineering design. We are moving 
forward to close our knowledge gap through research and 
instrumentation on humans in flight and to develop a thorough 
and holistic understanding of environmental challenges in the 
flight regime that results in PEs.
    I would like to thank Congress for supporting the Navy's 
and our efforts to address PEs. We were able to combine 
congressional funding with other resources to immediately put 
into motion research and material solutions to address 
physiological episodes, as well as expedite longer-term 
solutions.
    We are moving forward in optimizing the cockpit environment 
with measurable improvements, providing our aviators with every 
tactical advantage in a dynamic environment in which they 
operate. It is appropriate that I appear today with our Air 
Force partners. Not present today are our international 
partners who continue to assist us in gathering data and 
providing solutions to the PE issue.
    Right now, the Royal Australian Air Force and the Swiss Air 
Force fly with instrumentation to gather further data in 
support of our efforts. I have no doubt that through our 
coordinated efforts we will be successful in resolving this 
issue for the U.S. Navy, the Marine Corps, the Air Force, and 
our international partners.
    Thank you for the opportunity to present our progress 
today. I look forward to your questions.
    [The prepared statement of Admiral Joyner can be found in 
the Appendix on page 39.]
    Mr. Turner. General Nowland.

  STATEMENT OF LT GEN MARK C. NOWLAND, USAF, DEPUTY CHIEF OF 
              STAFF FOR OPERATIONS, U.S. AIR FORCE

    General Nowland. Chairman Turner, Ranking Member Tsongas, 
and distinguished members of the subcommittee, thank you for 
the opportunity to provide an update on our physiologic events 
within your United States Air Force.
    Today I will address some of the risk our airmen face 
defending our Nation, as well as multiple initiatives underway 
to address physiological events. Operating high-performance 
aircraft is fundamental to air superiority. Inherently, the 
nature of our profession means there will always be risk to the 
human body. It can be caused by unforeseen mechanical issues in 
our increasingly complex aircraft or by overstressing our 
bodies when we are max performing those aircraft to their 
combat capability.
    As the Deputy Chief of Staff for Operations, I believe that 
training our pilots is the critical factor between life and 
death. Whether it is executing the right procedures during in-
flight emergency or the maneuvers necessary to defeat an 
adversary in combat, training is paramount. Therefore, we make 
sure it goes hand-in-hand with material solutions when we 
implement recommendations for physiologic events.
    The Air Force tracks and provides historical data on 
physiological events. And even though the probability that Air 
Force pilots will experience a physiological event remains much 
less than 1 percent per year, the Air Force takes flight safety 
very serious. The service investigates every incident that may 
impact our most valuable asset, our people.
    And we are in complete agreement with actually the NASA 
report. This is really about people, as we have discovered over 
our incidents over time. The Air Force increased the budget of 
our 711th Human Performance Wing nearly by $60 million over the 
past 10 years, which goes back to the F-22 incidents we had, 
because we recognized we needed to look at the human element 
here. This funding has supported multiple research vectors into 
hypoxia, biomechanics, and toxicology studies.
    Additionally, the Air Force was able to add five pilot 
physicians last year. I have Dr. Bill Mueller behind me who is 
an example of those. He is a rated Air Force pilot, but he is 
also a physician, so he flies the airplanes that were actually 
out there and able to talk to the aviators. This unique 
critical program qualifies aerospace physicians to fly the 
airplane and then care for the airmen.
    We have also made organizational changes to the 
Headquarters Air Force Operations staff. I have appointed a 
general officer to be the singular point of contact for 
physiologic events. We learned from the Navy essentially. 
Brigadier General Bobbi Doorenbos will integrate the flow of 
information during physiological event investigations. She 
couldn't be here today because she has something with her 
family, her father, but she is hand-in-hand with Admiral 
Joyner.
    General Doorenbos provides a single nexus to pass 
information from aircrew to senior leaders and across multiple 
stakeholders. We continuously strive to improve our processes 
which we share information between multiple agencies and our 
joint partners during these events. The Air Force stood up an 
investigative team called the Characterizing and Optimizing the 
Physiological Environment in Fighters. Typical, we have a five-
letter name as opposed to the Navy's four. We call it COPE 
Fighter. This multiple service interagency team identifies 
solutions to optimize human performance and minimize 
unexplained physiologic events in our high-performance 
aircraft.
    But they are not always high-performance aircraft. So I 
would like to provide a quick update on our T-6, which is our 
primary trainer, which is critical to United States Air Force. 
The trainer fleet experienced multiple unexplained 
physiological events since the beginning of 2018. The first one 
happened at Columbus on the 19th of January, and I happened to 
be there on the day when it happened. It was an extremely cold 
day.
    We took an operational pause last Friday after we had 
multiple events across the fleet, to include Sheppard and 
Vance--and if you remember, Vance had had previous events. We 
did it because we needed to think about the safety of our 
student pilots and the instructors. This pause will remain in 
effect until we are certain that aircraft and procedures ensure 
flight safety.
    Major General Patrick Doherty, the commander of the 19th 
Air Force and our Air Education and Training Command, and his 
wing leaders are actively meeting in person with T-6 
instructors and student pilots to discuss the current situation 
and to listen to their concerns. We have learned this from our 
F-22 Raptor, our F-15, and our F-35. Direct interface with the 
leadership to the pilots is critical.
    But it is also critical that they meet with the spouses, 
because we need to ensure the family members that we put safety 
first and to explain what actions we are undertaking to repair 
and return the fleet to flying status. The key is trust. If the 
aircrew doesn't trust their system, the family doesn't trust 
the Air Force, we lose. That is why training is critical to 
this whole as we move forward.
    In our experience, we have studied the OBOGS, the onboard 
generating systems, and for the most part, we have not really 
discovered anything that is not working properly. We had some 
A-10 issues, which was a maintenance issue. We think we are 
discovering in the T-6 it is a maintenance issue right now. The 
system and the way the systems work is sound. Maintaining it is 
the critical factor.
    Your Air Force T-6s have flown 2.1 million hours with a 
physiological rate of 1.95. That means 1.95 incidents for every 
100,000 hours flown. But in 2018, the rate is soaring. So what 
is going on? That is why we paused to look at it. But we also 
need to get in the training, and we totally agree with the 
Navy--I mean with the NASA. We need to instrument our pilots. 
We are looking into that as we move forward.
    I thank you for the opportunity to provide you an update, 
and I appreciate the opportunity to answer any questions.
    [The prepared statement of General Nowland can be found in 
the Appendix on page 52.]
    Mr. Turner. General Nowland, I got to tell you, I could not 
be more disappointed by your presentation. I mean, we have 
hearing after hearing after hearing on this, and we have this 
report in front of us, and the report and the presentation that 
we have is that the human factor is not being taken into 
consideration and your answer is training.
    Now, I got to tell you, what I have in front of me--and I 
just had the Secretary of the Air Force in my office, and she 
does not agree with you. And I am glad, because you didn't 
ground your aircraft, your T-6 aircraft, just last week because 
of training. And this is a significant issue, and it is not 
just listen and talk. This is pure safety.
    Now, when we first started having hearings on this, the 
issue that individuals who are testifying before us came forth 
with was the difficulty to replicate the conditions in which 
the physiological episode happened. No one ever came to us and 
tried to blame the pilots and say it is just an issue of 
training. There is something wrong with the systems that these 
pilots are relying on for their lives and that we are asking 
them to rely on.
    Now, I was just telling the Secretary--and I mentioned this 
in the very first hearing that we had on this--I had this issue 
when I was a mayor, and it was with my firefighters and their 
breathing apparatus and equipment. And we, too, could not 
replicate anything that was happening with their equipment 
except situation after situation they found themselves in where 
their breathing apparatus was failing. And it had an impact of 
morale on the entire fire department.
    And what I am stunned by is that here I am--and I don't 
even know how many hearings we have had on this--and I still 
have someone who is representing one of the most important 
service branches for our pilots come and say this is an issue 
of training and listening and we need to talk to spouses. I 
mean, I have this report in front of me, and one of the 
headlines on this report is ``No Physiological Monitoring of 
the Pilot's Breathing Air Has Been Conducted.'' This isn't an 
issue of talking.
    I mean, the Secretary of the Air Force is concerned that 
the T-6 training aircraft are grounded not because somebody 
doesn't have training. Now, I realize what they have done in 
the past, but I realize what they are doing now. And I realize 
the problem that we had in the failure of the leadership in the 
Navy because we had pilots that refused to fly because the 
leadership of the Navy continued to treat this as if it was not 
a physiological episode that was happening to people, but that 
it was something that, because they were not able to replicate 
it, didn't need to be addressed.
    Now, we asked for this report and to move forward with 
this, because we didn't feel like we were getting the right 
answers. But if you continue to come before us and say this is 
just an issue of training the pilots, I mean, you know, 
General, should we start doing hearing training where we ask 
you to come before us and then let's have you hold your breath 
for a minute during the first hearing, and the second hearing 
we will have you hold your breath for the second for 2 minutes 
during the second hearing? It makes no sense.
    Mr. Cragg, give us some sense here. I know the OBOGS system 
has been tested. There are certainly concerns of maintenance. 
There are certainly concerns of where to identify this. But 
clearly something is wrong for these number of pilots to have 
these incidences and these planes to be grounded versus just we 
just have to train them to understand what happened when the 
incidents happen.
    What should be happening to try to fix this so our planes 
fly again and people can get the training and our pilots have 
the confidence in their equipment?
    Mr. Cragg. Well, sir, as we looked at the situation, we 
tried to come up with some hypotheses on what was causing the 
problems with the pilots. And we went through and looked--at 
least on the Navy side, we went through and looked at all the 
cases and our flight surgeons came up with a consensus that 
over 80 percent of those cases were due to hypoxia.
    Then we looked at the systems onboard the aircraft, and 
they have what is called an OBOGS degrade light, which comes on 
when the percentage of oxygen gets below certain values. So 
what we--we did a little further digging and found out that 
many or most of the physiological episodes that occurred 
happened without this OBOGS degrade light on. So in other 
words, they were getting enough proper oxygen in the cockpit.
    And so when we went to look further, what we found was 
there is hardly any information on the human in the cockpit. We 
don't have the amount of oxygen in his mask, the amount of 
CO<INF>2</INF> [carbon dioxide] in his mask, the kind of 
pressure that you would want to know about in the cockpit, the 
breathing rates, those kind of things where we could do some 
kind of physiological assessment of what is happening to the 
pilot.
    CO
    Now, in our report, you may have noticed we had an oxygen 
diagram that showed how oxygen was--how we think oxygen is 
being taken away in little certain steps by different 
circumstances like an aircrew vest that is too tight, maybe 
they didn't have enough water to drink before they went on a 
flight, some things like that. But what we really need is to 
get a picture of the pilot, and we don't have that yet.
    Mr. Turner. Do you have any sense that that step is being 
taken? I mean, because as we try to do the data, pulling just 
off of these systems that are producing the oxygen, and being 
unable to replicate it, do you see any steps that are occurring 
to be able to get that data of what the human is experiencing?
    Mr. Cragg. Absolutely. As a matter of fact, I get a weekly 
summary from the Navy on what they are doing to assist in the 
physiological episodes. And the one I got end of last week, 
they have made some remarkable progress on getting those type 
of instruments in the cockpit that are going to measure just 
those things we talked about.
    Mr. Turner. What is the data saying?
    Mr. Cragg. Well, I haven't seen the data, but what they 
have is they are out testing it with the VX-23, I guess it is, 
so--I mean, it is a heck of a lot further on than it was when 
we delivered our report.
    Mr. Turner. Admiral, what are you finding?
    Admiral Joyner. So where we are today is, we went to what 
was easy in T-45. We put in a system that could do cockpit 
pressure and oxygen delivered at the regulator outside of the 
OBOGS system to the pilot, because we could do that. And when 
we did that on the T-45, we had the discovery that we had a 
flow problem in that aircraft, and that was able to give us 
that.
    But that was an easier solution than what we are pursuing 
right now. What he is speaking of is something called an AMS--
it used to be called AMS, now it is called VigilOX--which is an 
attempt to measure breathing gas at the pilot. And we have 
tried several systems so far, and there are a lot of 
difficulties. It is probably one of the most difficult aspects 
of this problem. We are working closely with the Air Force to 
do this, and we are leveraging a lot of their early findings in 
F-22.
    So we are--these systems come forward. They are not 
perfect, but we have flown three flights now with the VigilOX 
system. We are just starting to collect the data. And it is 
really early with the three flights. Right now we don't see a 
lot of problems with the oxygen----
    Mr. Turner. I know you can't tell us anything that is 
conclusive, but are you at least being able to capture 
something that indicates that there is a problem?
    Admiral Joyner. We are able to capture the information of 
what is being delivered at the pilot level. Right now it will 
take those medical professionals and those researchers for us 
to better understand the data that is being delivered--because 
it is not apparent from the data that we are seeing what the 
shortfall would be, but it is three flights in, so it is very 
immature at this point. We are taking those steps. Those steps 
were brought forward by the 711th Human Performance Wing, some 
of their early work with the system, and through NASA prompting 
and also the oxygen labs at NAVAIR, there is a lot of work to 
make these systems work and make the data actually speak to us.
    Mr. Turner. So speak to us about the F-35. Apparently 29 
physiological episodes have occurred. What can we learn from 
what you are doing now? And how does that apply to the F-35?
    Admiral Joyner. I would say with the F-35, I talk to them 
constantly. A through C. I am sure the general also is 
collecting that data, as well. They enjoy an airframe that 
speaks to you more clearly than any other airframe we have ever 
had. So if I take my legacy Hornet, you are looking at my 1978 
Corvette. If I go to a Super Hornet, I am looking at maybe a 
2016 Lincoln Navigator. And I am in a JSF, I am flying the 
newest and greatest, and it is telling us more data than we 
have ever had.
    So they are actually accelerating a lot of their learning, 
and they just finished testing their OBOGS system, and they 
have a good understanding of that system. And it was a very 
positive outcome. But obviously we have issues that we have to 
pull apart that are not--we haven't discovered yet at this 
point.
    Mr. Turner. Ms. Tsongas.
    Ms. Tsongas. Thank you. I would like to talk about the role 
of the medical community, as you have wrestled with these very 
troubling episodes. And I think one of the--obviously the 
finding that we are all most taken by from the independent 
report is that this is so much about people.
    So I am going to quote again from it, just to sort of 
restate that. So chapter 12 states the following. Quote, ``PEs 
happen to people, not to aircraft. The U.S. Navy is addressing 
the PE problem as an aircraft, not a human problem. Remembering 
that PEs afflict people and not aircraft may help focus 
activities on better understanding human systems, human system 
requirements, and human system impacts caused by conditions of 
flight.''
    Later, in Appendix A of the report, it goes further and 
says, quote, ``The naval medical community as a whole has not 
been involved with attempting to solve the PE issue.'' From the 
beginning, PEs have been viewed as an engineering issue. And 
you have even referenced that, Admiral Joyner. ``Therefore, a 
proactive investigative U.S. Navy medicine effort never really 
got underway,'' unquote.
    As an example of a lack of U.S. Navy medical involvement, 
the report points out that the decision to deploy hyperbaric 
chambers to treat altitude-induced decompression illness 
appears to have been taken at the operational level. That is to 
say that it was made without any senior-level medical 
involvement. So, Mr. Cragg, can you please elaborate on these 
statements in the report and what you and your team think 
should be done about it?
    Mr. Cragg. Well, I think we were clear that the medical 
community needed to get involved. And I am happy to say that 
they currently are. One of the flight surgeons on my team 
participates with this meeting of naval medical people that is 
just now getting underway to help support the PE processes that 
Admiral Joyner has started.
    You know, it is unfortunate, but when everybody was saying 
this was an engineering problem, they weren't asked, and so 
they didn't participate.
    Ms. Tsongas. And were you surprised to find that?
    Mr. Cragg. Yes, we were actually very surprised to find 
that. And----
    Ms. Tsongas. So now that we found this to be a real 
shortcoming, Admiral Joyner, these two findings and this 
particular example, you know, are obviously quite troubling. 
And I think most members would assume that the Navy's medical 
community would be tightly integrated in all aspects of 
addressing the PE issue. Those of us here certainly would be.
    So what is the Navy currently planning to do in this area 
of its overall PE response? And is there a plan going forward 
for U.S. Navy medical to be involved and in some way that we 
can depend upon?
    Admiral Joyner. Yes, ma'am. Part of the standup of the PEAT 
was to bring in the Bureau of Medicine and Surgery underneath 
the PEAT in order to coordinate those efforts better. And that 
is what having a single entity to try to bring this entire 
fabric together has allowed us.
    So what did we do? We set up something called the 
Aeromedical Scientific Advisory Board, environmental advisory 
board, and they are a group of professionals, both medical, 
academia, oxygen specialists, our research scientists, some of 
the ones from Dayton, Ohio, toxicology out of our NAMRU [Naval 
Medical Research Unit] Dayton group, that are dedicated to 
advising us as we move forward on the PE issue.
    We also have an aeromedical team that is immediately 
involved in all the responses on the flight lines and analyzing 
and making sure that we are coming up with clinical practice 
guidelines that are coherent and are tied in well with that 
research community and with our medical community.
    And then on top of that is we have the root cause 
corrective analysis team who has--one of the members is an 
operator who has become a flight surgeon, much like the Air 
Force was talking about, General Nowland was talking about, and 
we have those professionals, as well, involved in the root 
cause analysis to make sure that we don't lose that human 
element as we go forward to try to find the root cause of the 
PE. So those are several examples.
    Ms. Tsongas. Have you found that by engaging the medical 
community in a more structured way, has it changed your 
clinical practice guidelines? So, for example, have you 
revisited the treatment you might--the ways in which you dealt 
with hypoxia or dealt with decompression illness?
    Admiral Joyner. I think it has standardized the response 
across the flight line, and it has energized further research 
in those areas that we are not as knowledgeable as we need to 
be for what the type of treatment should be. We also engage 
NASA, has been involved in several case reviews for us on some 
of the difficult issues of what the treatment should be.
    So we are extending beyond even within our internal 
resources to external resources like NASA, Duke oxygen 
specialists, and other people that we are bringing onboard to 
better understand this problem. So I think it has increased the 
scope. It has increased our consistency with the clinical 
practice guidelines. And we know that the chambers themselves, 
it is a do no harm. We know that they improve in conditions 
under those treatments, and we are not going to stop treating 
them effectively until we can find something better. But we 
have a full research community dedicated to finding out better 
ways to treat our aviators at this point.
    Ms. Tsongas. Thank you, I yield back.
    Mr. Turner. They have called votes. I think we can get to 
Mr. Kelly and Mr. Langevin, and then we will take a break. Mr. 
Kelly.
    Mr. Kelly. Thank you, Mr. Chairman and the Ranking Member. 
This is a very important issue. I think most of the people in 
here have either soldiers--I mean, sailors or airmen that are 
affected, airpeople, airwomen. I have Columbus Air Force Base, 
and, General Nowland, we just talked beforehand. And I know 
your son just graduated from there, so I know that you are 
personally invested in getting this right, because you have got 
skin in the game. And I think that applies to all of us who 
have served.
    I kind of agree--there is multiple issues. And we haven't 
figured it out at any level, and we have got to figure this 
out, what is causing this, whether it is maintenance, whether 
it is lack of training, whether it is the improper use of 
equipment, whether it is the equipment itself. We have been 
going over this a long time, but it is critical that we get it 
right and that we get it right quickly, but it is more 
important that we get it right.
    What type of--I don't see any movement in finding the 
solution, and that is very, very difficult. So, I mean, you 
have got to start with seeing what those are. What things do 
you think or is there any indication that we are getting close 
to finding at least what is causing it, whether it is the 
maintenance of the system, which I heard you say, General 
Nowland--and I think that is important. If we don't maintain 
the system right and don't do that, then we get those episodes.
    Do either of you--and this would--anybody on the board, do 
we have any idea what may be causing this?
    General Nowland. Congressman Kelly, thank you very much. 
And, Chairman Turner and Ranking Member Tsongas, and the 
distinguished members, if you got the impression from my 
testimony that we are blaming pilots, we are not. We are not.
    When I meant training, I am talking holistic training, 
exactly back to your part. Part of our suspicion with the T-6 
is that the time change technical order for the On-Board Oxygen 
Generating System does not exist. We are formulating it right 
now. So we never trained our technicians on how to maintain 
that piece of equipment.
    What we found in the F-22s is the equipment that we had--
the aircrew flight equipment, the life support equipment, we 
didn't have our crews trained properly to wear the equipment 
properly, and we noticed the valve on the chest was part of the 
solution.
    Back to the altitude chambers, we have 10 altitude 
chambers, but the altitude chamber that we did training 10 
years ago or 20 years ago is different than what we do today. 
So it is a holistic view of all of it.
    So I think right now our suspicion is that the maintenance 
of our On-Board Oxygen Generating System for our T-6s, after 
having flown them for 2.1 million hours, needs to be repaired. 
So we believe there is a repair that--but we don't know that 
for sure.
    The human physiological episode, we absolutely believe--as 
I said with the NASA--that that--we have got to collect data. 
We have ear cups data that we use in the F-35 that allows us to 
take the blood. One of the things that we found is when we have 
a physiological episode, we do not have the time quite right, 
because the blood alkalinity changes. So we are putting testing 
equipment that will meet the aircrew right at the airplane to 
try to get the best data that we can get from the pilots in the 
meantime.
    So to answer your question, sir, we are working multiple 
solutions. We think it is maintenance on the T-6 right now.
    Mr. Kelly. One other quick question. And this is to both of 
you. Grounding of the T-6 or the T-45 or whatever equipment, we 
already have a pilot shortage across the board. What impact 
does this have on the training pipeline? And what are we doing 
to make sure that we don't have a prolonged impact which gets, 
you know, the accordion effect as we go in time?
    General Nowland. Sir, General Doherty, the 19th Air Force 
commander, is working two solution sets. One is trying to get 
the On-Board Oxygen Generating System to work properly. The 
second one is an interim solution where we would modify the 
CRU-60, which is what we connect our oxygen mask to, take it 
off of the onboard generating system, use the ambient pressure, 
and then modify the flight profile so that we stay between 
6,000 and 7,000 feet on cabin pressure, and then we would stop 
all solos. We would always fly our crews dual as we working the 
simultaneous. We lose 700 sorties a day right now with the T-6 
grounding. That will have an effect on our pilot training.
    Admiral Joyner. For the T-45, we have turned the curve. Our 
rate is maybe one-fifth of what it was at the point where we 
were approaching the grounding, and that is a significant 
change. We assess that we have identified the flow problem in 
the T-45 as being the primary issue. We have taken steps to 
mitigate it. We have long-term steps to solve it.
    For right now, though, we have a training impact that is--
we are trying to absorb in all different phases of flight 
through our follow-on training. We are bringing the Reserves to 
bear against the training problem. We are extending the 
resources of the contract support that we have on the T-45. And 
we are trying to buffer that impact across the system, longer 
term relying on some of our aviators to operate longer on a 
volunteer basis at sea in order to try to blend this across the 
system.
    But there are impacts. And you can't deny those. We are 
just trying to mitigate them at this point.
    Mr. Kelly. Thank you, Chairman. My time is expired.
    Mr. Turner. Thank you. Before I get to Mr. Langevin, 
General, thank you for clarifying that. This is our fifth 
hearing and briefing on this. We just sort of expect a 
progression of shared values on issues, and I appreciate your 
clarifying your language, because when we began this, as Mr. 
Cragg has said, it is not just the human value, the pilot value 
is not being honored. I appreciate you making that 
clarification statement. Because there is at times when you 
have something like this the question of, is it real? And this 
committee certainly believes that what is occurring is real.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. I want to thank our 
witnesses for being here today. It is a very important issue 
that we need to get to the bottom of.
    I haven't heard a whole lot that makes clear sense of all 
this yet, except for some of the information I have before me 
right now, so I will put this out there and then ask Mr. Cragg 
to respond first. But the NASA review report states on page 15 
that, quote, ``A problem with the breathing gas system as a 
whole is that the onboard oxygen generation system gets fed 
last. The enormous amounts of cooling air required for the 
avionics and radars (especially on the E/A-18G Growlers) means 
that the ECS [environmental control system] controls 
preferentially direct flow to them'' instead of the OBOGS.
    Then finding 10-7 of the report states that, and I quote, 
``Avionics flow has priority over cabin flow in some 
operational cases . . . data from the PE flights has directly 
demonstrated cases in which high avionics flow results in lower 
than required cabin airflow.''
    Finally, observation 10-2 in the report states that, and I 
quote, ``The Navy appears to have little insight into elements 
of the ECS control programming logic. Discussions with 
engineering teams at the Patuxent River and fleet support 
activity North Island suggest that the logic programming 
control sets were not part of the contract deliverable for the 
F-18 and, therefore, may no longer be documented in any form.''
    So if I had to summarize these three statements, it would 
be that the crew's airflow comes last. But the Navy doesn't 
seem to know exactly why that is the case. So given the 
aircraft can't operate without its crew, one would think that 
the opposite would be true.
    So, Mr. Cragg, to you, would you agree with the overall 
assessment? And what else would you like to add to what is in 
the report on this subject?
    Mr. Cragg. Thank you. Yes, I would agree with that 
statement. The Navy does not fully understand the pressure 
control logic, because as you mentioned, it wasn't part of the 
F-18 design that was supplied to the Navy by Boeing.
    But this somewhat gets to the theme--one of the themes of 
our report that we think the Navy needs to do some human system 
integration where they look at all aspects of what is going on 
with the human, what is going on with the environment, and how 
the system of the airplane itself operates. And if they don't 
have an idea of how the logic control portion of a key 
component, the environmental control system, that is a 
deficiency.
    And they need to do that. They need to figure out how that 
operates so--you know, one, they can troubleshoot the system 
properly, but at the other side, they need to do this human 
system integration where they put everything together and 
understanding exactly how your systems operate is key to that.
    Mr. Langevin. Admiral Joyner, I also have several questions 
for the Navy following the statements in the report. First of 
all, what can be done to fix this? Does the Navy have all the 
technical data on the F/A-18 to address this issue? And if 
airflow to the crew was given first priority on the aircraft, 
how would that affect mission systems? And then finally, does 
the Navy have an effort in place with Boeing to address this 
design issue in the current and new
F/A-18s?
    Admiral Joyner. I would say I vary in my opinion and my 
status on the ECS system. The OBOGS is the primary system that 
is fed. And cooling air is not removed from the OBOGS system in 
order to feed it elsewhere. There are instances where if the 
avionics are overheating that it won't pull it from the OBOGS, 
it will pull it from the cooling for the pilot in order to make 
sure the avionics function. None of us want our avionics to 
shut down, because it will result in an ejection, and that is 
not something we want to see.
    So overall, I would say that when I look at the ECS system 
on the F/A-18, we need to regulate it better. That is where our 
emphasis has been. Due to the timing of the legacy system in 
the
F/A-18, a lot of what is available on the ECS system is analog. 
It is in vaults and it is stored elsewhere. We have access to 
those, but it is not as simple as looking it up on a system. 
You have to go find that. And we are working directly with 
Boeing to make sure we have access to all the support material 
we need.
    The engineers at NAVAIR reassure me and have walked me 
through the system to explain to me why they know that the 
pressure system and how they have tested it, but we realize we 
want to test it further on the OBOGS system, and we are taking 
advantage of the 711th lab that they have that they are able to 
do dynamic testing that recreates the flow that is given to 
that system in the OBOGS. So we are going to take advantage of 
that testing, as well, to do dynamic testing, not just point 
testing.
    Mr. Langevin. Did I understand you, though, that you 
completely disagree with NASA's findings that the OBOGS system 
is fed last?
    Admiral Joyner. My understanding of the system is that 
OBOGS is prioritized first, ECS is second. The third system 
that goes is the avionics cooling, except if it starts to 
compromise those avionics systems. And then we are going to 
pull heat but not pressure out of the system. The F/A-18 has a 
lot of pressure, and it is--from what I see to date, it is more 
about regulating that pressure, because we are causing over-
pressurization at times within that system. And that is an 
issue that we have to--we are putting in eight corrections to 
the ECS system in order to try to regulate that pressure better 
and try to smooth the flow.
    So we realize that our concentrator, our OBOGS system, 
could have a better system and we are pursuing that, but we 
don't necessarily agree that the--how it is prioritized is done 
incorrectly.
    Mr. Turner. We are going to have to take a recess. We do 
have votes we have to run to. And I know Mr. Gaetz has 
questions, and we will be returning for those.
    [Recess.]
    Mr. Turner. Okay, we will call the hearing back to order. 
Please have a seat. Mr. Gallego, your questions, please.
    Mr. Gallego. Thank you. My question is about the GGU-12 On-
Board Oxygen Generation System on our F/A-18s.
    At three separate points in the report, NASA advises us of 
testing and practices for the critical system that seem 
abnormal. First, the report states that the Navy and Boeing 
have not followed well-known industry best practices in a 
system that is critical to the life support of our F/A-18 
aircrews. Further, it appears that current test equipment does 
not simulate real flight conditions actually encountered by the 
F/A-18s.
    So if that is true, it could generate false positive 
results, as we are hearing from now, that may conceal 
underlying problems with the system as it operates under real 
conditions. And third, it appears that some of the underlying 
design specifications for the
F/A-18's oxygen generation system are decades, decades out of 
date and do not reflect the latest scientific knowledge on 
aircrew breathing demands.
    One of the report's key recommendations to bring these 
specifications up to date to conform to standards developed in 
2015. So, Mr. Cragg, taken together, these examples from the 
report indicate that the breathing system of the F/A-18 has 
serious problems. Do you agree?
    Mr. Cragg. Yes, sir.
    Mr. Gallego. And how would you summarize what these 
problems are?
    Mr. Cragg. Well, I would say unfortunately the original 
OBOGS specifications were not put through the human systems 
integration process that would have highlighted the fact that 
it cannot deliver for all conditions, like high-stress portions 
of the flight. That is why a key recommendation of our report 
is to re-examine the OBOGS in light of the human system 
integration effort. And additionally, as you pointed out, some 
of the testing that is done on the OBOGS doesn't utilize in-
flight conditions. But I understand they are getting better and 
closer to the real thing.
    Mr. Gallego. They are getting better and closer to the real 
thing. Is there a time period we understand that this is going 
to be happening?
    Mr. Cragg. I think you have got to ask the Navy that, sir.
    Mr. Gallego. Lieutenant General Nowland, while you are not 
Navy, do you have anything to add to Mr. Cragg's answer?
    General Nowland. On the F/A-18, no, sir, I do not.
    Mr. Gallego. Okay. I think many of us are a little anxious 
to see some form of conclusion or time period, especially 
involving the lives of our service members. I yield back.
    Mr. Chairman, I yield back.
    Mr. Turner. Mr. Carbajal.
    Mr. Carbajal. Thank you, Mr. Chairman. Thank you all for 
your service and for addressing us today.
    The report makes two statements regarding leadership and 
communications within the naval aviation community that I want 
to touch on.
    First, in finding 10-29, it states that, quote, ``There has 
been a breakdown of trust in leadership within the pilot 
community'' and that ``one notable area leading to a lack of 
trust in leadership is the completion of Parts A/B/C of the 
Physiologic Episode report. Once these questionnaires are 
completed, they disappear through the `system,' only to be 
examined months later. None of the pilots interviewed ever 
received official word as to the cause of the incident or the 
mitigation the U.S. Navy would be taking to reduce the 
likelihood of a repeated event.''
    Second, with regard to feedback from aviators, the report 
observation 10-20 points out that, quote, ``The Navy has not 
conducted a fleet wide survey of their F/A-18 air crew to 
understand the PE problem from the human perspective, where 
these events actually occur.''
    Taken together, it appears that the communication issue 
noted in the Navy's own comprehensive review conducted earlier 
this year remains a problem.
    Rear Admiral Joyner, what is the Navy doing to get feedback 
on PE event investigations back to the crew members that 
experience them?
    Admiral Joyner. Yes, sir. What we do right now is we have a 
quick look that we are doing. We start in T-45s, where we try 
to come back at the 48-hour point, and we brief out our quick 
look response of what we are receiving from the Parts A, B and 
C, and information that we receive from the aircraft itself. 
And we present that to the aircrew. Approximately 30 days 
later, we come back with a full report, which outlines what we 
found on the aircraft as far as any system failures, any 
additional information we were able to derive from the data 
sets.
    So in F/A-18, we are using Slam Stick data, which tests the 
pressure inside the cockpit. We are getting the OBOGS 
information for any type of malfunctions we are able to find. 
We also have a quick response force that falls in on the 
aircraft. And rather than breaking the system, as we have 
historically, we holistically analyze a system with a team on 
station that includes a medical professionals. It includes 
engineers. A Boeing rep [representative] is also onboard. And 
the pilots are also involved with the pilot maintenance and the 
aviation physiology, the aeromedical safety officer, all fall 
in on the aircraft to do this analysis and try to figure out 
root cause for each of the events.
    That is all communicated back to the pilots. Part of that 
communication plan is also what we call the PE road show, which 
is--I just returned from Japan doing one out there, both Atsugi 
and Iwakuni, and we addressed the pilots directly on what we 
are finding with their aircraft, different trends. We are 
getting a health monitoring system up online that basically 
shows the prognostic health of their airframes by BUNO [bureau 
number], and we are showing them on their aircraft what we are 
seeing with the data. So the feedback loop has been 
strengthened, and we are making sure that we are getting that 
back down to the deckplates, to the aviators, site by site.
    The second part is the survey. We just completed the survey 
last Friday. We did get over 500 responses out of our aviation 
community, but we also did maintainers, as well. It was a large 
response. We got about 22 percent of aviators and maintainers 
responded to the survey. And that survey is designed to go 
ahead and solicit that feedback and get information about 
different things that have impacted the pilots and how they are 
operating.
    So we did take both of those onboard, and we did move 
forward on them quite regularly. And then we also have the 
weekly newsletters and engagements that we do with the fleet. I 
go site to site.
    Mr. Carbajal. And was this done, this survey of the F/A-18 
community, as well?
    Admiral Joyner. Yes, sir, that was F/A-18 and T-45.
    Mr. Carbajal. Great. May I ask how long this feedback loop 
has been in place?
    Admiral Joyner. The T-45 feedback loop has been in place 
for roughly I think 3 months. When we stood it up and went back 
to flying, back in September timeframe, we realized that we 
needed to push that information down. And so in September, the 
T-45 led the way, and now we have brought that onboard with F/
A-18 and we started that roughly November, December timeframe.
    Mr. Carbajal. Great. Thank you very much, Mr. Chair. I 
yield back.
    Mr. Turner. Mr. Panetta.
    Ms. Tsongas.
    Ms. Tsongas. Thank you all for being here. I am sorry for 
the break, but appreciate your patience. Admiral Joyner, I just 
have a couple of quick questions, really only take a yes or no 
answer, or a maybe if it is not clear that it is one or the 
other.
    The report states in finding 10-20 that there has been no 
definable effort to use the OBOGS laboratory at the 711th Wing 
at Wright-Patterson Air Force Base to assess effects on OBOGS 
output gas. Is there currently a plan in place to conduct this 
testing?
    Mr. Turner. I was going to ask that, but I felt like I had 
a conflict, so thank you for asking that. I did not ask her to 
ask that, but that is important. That is in the report, and 
that is a question.
    Admiral Joyner. Yes, ma'am. We are intending to use the 
711th Dynamic Testing Lab that they have on site.
    Ms. Tsongas. It is an important resource, and it is a shame 
it took this study to lead to that. Does the Navy intend to 
issue a request for proposal in the near future for a new On-
Board Oxygen Generation System for the F/A-18?
    Admiral Joyner. Yes, ma'am.
    Ms. Tsongas. Does the Navy intend to develop and install a 
new cabin air pressure monitoring and alerting system for the 
F/A-18?
    Admiral Joyner. Yes, ma'am.
    Ms. Tsongas. Does the Navy intend to design and replace the
F/A-18's cabin pressure regulator valves?
    Admiral Joyner. Yes, ma'am.
    Ms. Tsongas. Is the Navy doing----
    Admiral Joyner. We are looking into a suitable replacement 
for that. We have gone through to repair them and to make sure 
that the maintenance, when they come back out to the fleet, is 
accurate. We are looking at a couple of different options for 
that valve, but right now we have concerns about some of the 
solutions we have been offered. So I wanted to clarify that.
    Ms. Tsongas. Okay. Is the Navy doing upgrades to the ECS 
software on F/A-18s and EA-18Gs to deal with icing in the ECS-
related water lines?
    Admiral Joyner. Yes, ma'am.
    Ms. Tsongas. And is the Navy planning to install an 
automatic backup oxygen system in the T-45?
    Admiral Joyner. Yes, ma'am.
    Ms. Tsongas. Is it planning to do so for F/A-18s?
    Admiral Joyner. It is not at this time.
    Ms. Tsongas. Thank you.
    Mr. Turner. Admiral, help us. We have had a total of five 
now hearings and briefings. Ms. Tsongas and I both traveled to 
you and have received briefings on this. We asked for this 
report, and, Mr. Cragg, thank you so much for the detailed 
information that is in this, and this is very, very helpful, 
of, unfortunately, things that aren't happening after things 
that aren't happening after things that aren't happening.
    This has got to be fixed. This has got to stop. And I don't 
have confidence that we are getting nearer to that. I believe 
that there are a number of things that are being done and a 
number of things that are not being done that are now being 
done because the report said to do them.
    But this would seem to me to be something that needs to be 
done quickly and expeditiously and that this should not be a 
research project. This should be a fix-it project. Help me get 
some sense that we have in place things that are going to do 
that, knowing that this started with our having an 
understanding that pilots had to revolt and say, ``I won't 
fly'' because the chain of command wasn't even recognizing 
their complaints and their incidences, you know, all the way to 
there is still a sense of morale of lives are at risk.
    Help us get a sense that the work that we are doing and the 
work that you are doing is going to result in something.
    Admiral Joyner. Right now, T-45s are fully operational. 
They operate every day. We have over 27,000 flight hours. We 
have had six events in those aircraft, all mild in nature, one 
of which was a system failure that was identified by the 
system.
    So we have turned the corner on T-45. We have long-term 
corrections in place, design changes to the aircraft to fully 
address it, so we are not declaring victory. We have an RCCA, 
root cause corrective analysis, team that goes line by line, 
starting with the human, ending with the human, trying to find 
root cause for both the T-45 and the F/A-18.
    Industry is involved. Aeromedical is involved. NASA helps 
consult and keep us on track so that we don't lose sight of 
things that may be falling out. We have a long-term goal of 
adding a robust human systems integration effort on par with 
our aircraft design requirements and engineering force. So we 
are looking to fully integrate them within our efforts.
    On F/A-18, we are turning the corner. We see now that we 
are able to influence the pressure response on the aircraft. We 
have been able to make noticeable and observable, measurable 
changes to the F/A-18, which are resulting in a better, more 
stable ECS system. There are long-term design changes in place 
to ensure that we further stabilize that system and we have an 
OBOGS concentrator that we are looking for a request for 
proposal.
    We are open to added things that are found along the way in 
order to make sure that we are not missing anything. That root 
cause effort is a longer-term effort that will lead us--the 
medical force outcomes will take more time. Those are fully 
funded through the FYDP [Future Year Defense Program] type of 
efforts to fully define pressure and oxygen requirements for 
pilots. We are working with the Air Force actively, and we are 
pursuing all those answers long term.
    I don't--every day I ask myself, what else could we be 
doing that we are not doing? I turn to NASA and I ask those 
questions. I work with the Air Force. And we make sure in 
academia, as well. And we want to make sure that we are not 
missing a single thing, and we have gotten your assistance, as 
well, which is helping us do those efforts.
    So all I can tell you is, my effort doesn't stop. I will 
have somebody who will relieve me in this effort, and we won't 
stop until we resolve it.
    Ms. Tsongas. I want to thank Mr. Cragg for this very 
important study that I think has helped create a path forward. 
And I appreciate, Admiral Joyner, the seriousness of purpose 
you have brought to this effort. Again, as I said in my opening 
remarks, I am very concerned that you are being rotated out in 
less than a year into this effort and remain very hopeful that 
somebody will be put in your place who can stick with it a 
little longer, because we know change does lead to setbacks. 
And we can't afford to lose any more time.
    And just wanted to say, as we are here, as we sit here 
today, new F/A-18s are rolling off the production line at a 
cost of about $69 million per aircraft. At some point, paying 
$69 million for an aircraft we know has serious problems with 
its life support system has to be questioned. So I am not 
calling for stopping production, but it seems clear that the 
Navy and Boeing need to work together and come up with 
improvements to the F/A-18 that make them safer for our brave 
men and women in the military to operate, because we know it 
puts their lives at risk, and to make sure every single new F/
A-18 has those improvements built in from day one and we are 
not back here a good number of years hence revisiting these 
same problems yet again.
    Thank you, and I yield back.
    Mr. Turner. Thank you. Mr. Cragg, many times this committee 
authorizes a request for a report to be done. You and NASA have 
outdone yourselves. This was a phenomenal and excellent report. 
It is great to see that work product translated from our 
request. And thank you for the dedication of which you 
approached this.
    Appreciate all of your efforts for this. I hope as we get 
to our--what will have to be a sixth hearing and/or briefing on 
this, that we have a greater sense--although, Admiral, I 
appreciated your closing comments of things that you are 
accomplishing--a greater sense that this is being advanced in a 
way that hopefully the committee can feel as if it is being 
done in a way that our oversight is no longer necessary and 
these can be just incidences that go into reports instead of 
incidences that in the aggregate require congressional action.
    Thanks. With that, we will adjourn.
    [Whereupon, at 5:40 p.m., the subcommittee was adjourned.]



      
=======================================================================



                            A P P E N D I X

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            February 6, 2018

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            February 6, 2018

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. TURNER

    Mr. Turner. a) By centering your investigation on the human 
element, what new information was revealed?
    b) What were the shortages of evidence related to human health in 
an F/A-18 environment that you encountered?
    Mr. Cragg. 4a: 1. NASA flight surgeons, reviewing pertinent 
Physiological Episode (PE) Medical information as a whole instead of 
just individual cases, determined that > 80 percent of the PEs were 
Hypoxia related. 2. The human system, specifically the requirements for 
meeting human needs, was not represented in the integrated end-to-end 
description of the F/A-18. This omission made it difficult for system 
hardware engineers to find end-of-the line problems when isolated 
individual systems appeared to be working well.
    4b: There was and is hardly any data or measurements being taken in 
the F/A-18 that addresses the human response to the flight environment. 
Data needed includes:
    i. breathing patterns (rate, depth, volume) in flight
    ii. cabin pressure
    iii. Oxygen levels, flow and pressure in the breathing gas system
    iv. Exhaled CO2 levels in the mask
    Data such as the above serve two purposes: 1) as a monitor of human 
health in the dynamic flight environment, and 2) as specific diagnostic 
checks on components of the integrated life support system.
    Data that was collected included inflight sorbent tube samples from 
EA-18 Growlers of pilot breathing gas. This data, when investigated by 
NASA, demonstrated an unambiguous relationship between increased 
contamination and the occurrences of PEs. The Navy did not and has yet 
to conduct proper analysis on these samples. It is important to note 
that the relationship is one of correlation; NASA did not conclude that 
contamination was the cause of PEs.
    Mr. Turner. a) Is the U.S. Navy capable of solving the PE problem?
    b) Has the Navy been forthcoming with all of their data?
    Mr. Cragg. 6a: Yes. When the NASA investigation started, the NASA 
team saw dedicated individuals across the U.S. Navy doing their best to 
find and fix the PE problem. However, they weren't working together in 
an organized way, and their central focus was on the plane--not on the 
pilot and importantly, not on the dynamic plane/pilot/environment 
interaction.
    6b: Yes. The Navy quickly provided us with everything we asked for.
    Mr. Turner. The report notes in several observations and findings 
that your team found specific design problems with the F/A-18's 
environmental control system, onboard oxygen generation system, and 
CRU-103 regulator. Can you explain those in detail?
    Mr. Cragg. The F/A-18's Environmental Control System (ECS) is fed 
high pressure air from a direct connection to the engine that varies in 
its pressure whenever the pilot changes the throttle. The ECS feeds 
other systems that must account for these pressure changes. One of 
these systems, the cabin pressure control system, is prone to 
instability which leads to pressure excursions in the cockpit. Others, 
like the onboard oxygen generation system (OBOGS) and CRU-103 
regulator, appear to be delivering oxygen to the pilot in a manner 
inconsistent with nominal pilot performance for some flight regimes. 
Put simply, all evidence supports that the pilot is not getting the 
stable cabin pressure and breathing oxygen supply that he/she needs in 
some cases, due to complex system interactions and deficiencies in the 
design of the jet as an integrated system.
    However, more generally and more importantly, these problems are 
rooted in the lack of a (human system) ``requirements driven'' approach 
to the design and engineering of the integrated environmental control 
system, onboard oxygen generation system, and CRU-103. While these 
systems may indeed meet individual documented requirements; it remains 
evident that documented requirements are insufficient to 
comprehensively support pilot physiological needs. There remains a 
dearth of data surrounding the pressure and breathing performance needs 
of a human being operating the F/A-18; and by extension a dearth of 
data to support or refute when these performance needs are being met or 
not met operationally by the aircraft.
    Put simply again; the ECS, OBOGS, and CRU-103 were specified based 
on an evolution of operational history and aircraft design legacy, 
rather than validated performance data used to evaluate pilot demands 
in the tactical jet flight environment. While this approach for 
hardware design is sufficient to support pilot performance in most 
cases; it supports no understanding of where the actual performance 
envelope lies, and therefore no ability to anticipate or evaluate when 
the performance envelope may be exceeded and result in a Physiological 
Episode. Additionally, the GGU-12 OBOGS unit and oxygen delivery 
schedule falls significantly short of meeting the newest requirements 
of MIL-STD-3050. This new standard collects the best information on 
meeting pilot breathing requirements for aircraft using OBOGS. The NASA 
team also pointed out that the CRU-103 pilot breathing regulator, while 
capable of providing additional pressure during periods of high-g 
force, as is done for example in the F-22, is not used in this manner 
in the F/A-18. This minor change in usage has been found to help pilots 
breath more easily during high-stress combat maneuvers. NASA has not 
monitored the continuing execution of the program. However, the agency 
has been informed that the Department of Defense has fully accepted 
NASA's finding that Physiological Episodes happen to people, not 
aircraft. According to the DOD, these findings have driven their Navy 
Physiological Episode Action Team (PEAT) to shape a holistic strategy 
that examines Physiological Episodes as an interactive condition 
between the human and the aircraft. Although physiological monitoring 
is not a near-term capability, the DOD has indicated the PEAT is 
aggressively pursuing acceleration opportunities and accelerating 
mitigations to the fleet, where DOD is looking at mechanical fixes to 
the machine but also directly assessing human health and performance in 
the cockpit.
    Mr. Turner. The report notes numerous concerns with the Navy's 
``Human System Integration'' process. One finding stated that the 
process is ``deficient''. Can you elaborate on those concerns?
    Mr. Cragg. The Navy's Human System Integration process is indeed 
``deficient.'' The Finding in question states: F10-30: Currently the 
Human-Systems Integration (HSI) process within the U.S. Navy is 
deficient; it appears to be associated with a decrease in the available 
subject matter expertise in the fields of Aerospace Medicine, 
Physiology, Human Factors Engineering, Cognitive Psychology, and Human 
Systems Integration, as well as organizational barriers to meaningful 
interaction amongst these disciplines across the U.S. Navy. NOTE: This 
finding is similar to one made in the USAF F-22 Life Support System 
review several years ago. In 2012, NASA was asked by the USAF to 
provide a review of the F-22 Life Support System. One of the major 
findings was a significant increase in the work-of-breathing for pilots 
during flight. This issue was primarily the result of a lack of 
thorough human-machine interface testing in the flight environment. The 
work-of-breathing theory was evaluated by simply instrumenting a pilot 
wearing standard aircrew flight equipment and placing them in a 
centrifuge configured to replicate the life support system an 
operational F-22 aircraft. These data led to improvements in the F-22 
design and in the human performance associated with piloting an F-22.
    In 2012, USAF General Gregory S. Martin testified before Congress 
that (from the NASA report):
    ``Over the past 20 years, the capabilities and expertise of the 
USAF to perform the critical function of Human Systems Integration have 
become insufficient, leading to:
    --The atrophy of policies/standards and research and development 
expertise with respect to the integrity of the life support system, 
altitude physiology and aviation occupational health and safety.
    --Inadequate research, knowledge, and experience for the unique 
operating environment of the F-22, including routine operations above 
50,000 feet.
    --Diminution of Air Force Materiel Command (AFMC) and Air Force 
Research Laboratory (AFRL) core competencies due to de-emphasis and 
reduced workforce to near zero in some domains.''
    Many of these same underlying Human-Systems Integration 
deficiencies are evident in F/A-18.
    Human-Systems Integration (HSI) is defined as the 
``interdisciplinary technical and management processes for integrating 
human considerations within and across all system elements; an 
essential enabler to systems engineering practice'' (Haskins, 2007). 
The goal of HSI is to integrate the human into the system as a critical 
element; the human is as critical to system design considerations as 
the hardware or software.
    With regard to fighter aircraft, the interaction of the human with 
the aircraft (i.e., human factors) is one particular domain that 
demands a great deal of attention because of the complexities involved, 
and because of significant consequence associated with failure. This 
domain is the comprehensive integration of human capabilities and 
limitations (physical, sensory, cognitive, and team dynamics) into 
systems designed to optimize human interfaces and facilitate human 
performance in training, operation, maintenance, support, and 
sustainment of a system. The Department of Defense has formalized the 
role of HSI. There are nine domains of HSI: manpower, personnel, 
training, human factors engineering, occupational health, environment, 
safety, habitability, and human survivability. A commonly accepted HSI 
success story was the development of the F119 engine for the F-22 by 
Pratt & Whitney. Because both the USAF and Pratt & Whitney were 
dedicated to HSI the development constantly included the human element. 
The resulting design increased ease of assembly, maintenance, and 
repair thereby reducing overall labor costs, servicing frequency, and 
number of tools required. The USAF elevated the visibility of this 
process and the contractor also shared in this vision by creating 
testing facilities designed to better evaluate the engine to ensure 
reliability. Ultimately, the key to successful HSI is the fervent 
commitment from top-level leadership in maintaining the integral nature 
of HSI. This has not been the case in the F/A-18.
    To maintain the combat edge, weapon systems must change over their 
life cycle. This is a fact. However, these changes must be 
appropriately evaluated using an HSI analysis to explore the potential 
impact to the human. The F/A-18 life cycle has been extended for years 
beyond what was originally planned and has undergone a number of 
modifications ranging from structural to digital. There is a vast 
difference between the original F/A-18A ``Hornet'' and the EA-18G 
``Growlers''. The oxygen system changed from liquid oxygen (LOX) to the 
OBOGS. The EA-18G received advanced radar, various electronics counter-
measures components, and a second aircrew member who acts as the 
Weapons Systems Operator (WSO). These changes impacted the demand for 
engine bleed air but no rigorous assessment was conducted to determine 
if the engine bleed air can meet these demands while maintaining 
appropriate OBOGS oxygen concentration and flow throughout all phases 
of flight. Just as the aircraft changes over time, new understandings 
of human physiology also occur that must be considered in terms of the 
overall system. Indeed, even during initial design phases, assumptions 
about the human are made and sometimes these assumptions are not valid. 
Thus, the requirements based on incorrect assumptions or an incomplete 
understanding of human physiology can be costly to correct. In 1993, a 
study identified that pilots could over-breath the on-board oxygen 
generation system (OBOGS). A recommendation was made to change MIL-D-
85520 to require the oxygen systems of tactical aircraft to produce 
peak inspiratory flow rates of at least 260 LPM (NAVAIR TM-93-59 SY). 
This recommendation was not implemented. It is noteworthy that MIL-STD-
3050 (2015) now contains a similar minimum flow requirement. During the 
early stages of the spike in reports of F/A-18 PEs, the Navy assumed 
that the PEs resulted from a defect in the aircraft. The aircraft was 
taken out of service and inspected. No consideration was given to the 
integration of the human and machine during flight operations. While an 
inspection could determine if a component was operating within spec in 
a controlled environment, it remained unknown if the component 
performed as expected on the aircraft during dynamic flight. 
Furthermore, it remained unknown if these established specifications 
met the demands of the human system during flight, and if they 
continued to meet those demands following various system changes. The 
human was not considered as a critical element; the HSI was deficient. 
As new information about the machine and the human is learned, we now 
recognize that the physiologic requirements determined for the original 
system design were already partially inadequate. Due to the increased 
cooling needs in latest models of the F/A-18, this inadequacy has 
increased. The greatest concern is the lack of data to answer the 
question: how inadequate?
    It's impractical to instrument an entire system of any significant 
complexity, however, key pieces of information are required to 
correctly diagnose problems. For example, the F/A-18's pressure 
fluctuations are difficult to assess because there is no inlet or 
output sensor that directly records these data for analysis. This is a 
knowledge gap in terms of characterizing and assessing the machine 
performance. Similarly, there are critical knowledge gaps in 
characterizing the human system. In fact, the most important data 
required to identify and solve PEs is entirely absent; there is no data 
collected to objectively define the human physiological experience in 
the cockpit during operational flight. There is no routinely recorded 
data about oxygen pressure, flow, or percentage. Additionally, there is 
little data on pilot breathing rates, breathing volume, cabin pressure, 
etc. Without data, the human subjective report of a PE cannot be 
compared with in-flight exposure and potential causal factors cannot be 
confirmed or dismissed. Furthermore, without measurements to 
characterize the current conditions, it will be challenging to know if 
the results of the Navy's changes positively or negatively impacted the 
human. To be clear, the PE rate is a deeply insufficient metric as 
human participation can be influenced by various factors far easier 
than data. This is a hindrance to exploring and assessing the validity 
of any solution.
    Like the USAF in 2012, the Navy's critical core competency of HSI 
expertise has atrophied due to a lack of investment and support. 
Currently, the emphasized expertise is aircraft engineering solutions. 
The best way to affect change for a human-machine system is by 
integrating the human into the system and assessing that integration 
with each subsequent design modification. Without appropriate HSI 
expertise at the table, the most integral, intelligent, and valuable 
part of the system--the human--isn't represented.
    Mr. Turner. In the FY17 NDAA, this Congress directed the Secretary 
of the Navy to conduct an independent review of the plans, programs, 
and research of the Department of the Navy with respect to 
physiological episodes affecting aircrew of the F/A-18 Hornet and F/A-
18 Super Hornet aircraft, as well as the efforts of the Navy to prevent 
and mitigate the effects of such physiological events. This 
subcommittee is interested in hearing what the Navy found valuable from 
NASA's report and how are you using NASA's findings today to inform 
future efforts with the F/A-18 series aircraft?
    Admiral Joyner. The Navy found NASA's report useful in identifying 
organizational constructs that were not working well to respond to the 
urgent issue of physiological episodes (PEs), including communication 
shortfalls, stove-piping of information, and lack of a single clear 
leader for PE efforts. NASA's recommendations provided a catalyst for 
reorganization and the adoption of a broader view of the Naval Air 
Systems Command's (NAVAIR's) systems engineering boundaries when 
addressing the PE problem, specifically inclusion of the human factors 
and physiological needs in system design and function of the aircraft. 
Additionally, NASA bolstered support for a comprehensive Root Cause 
Corrective Action (RCCA) investigation that the Navy has fully embraced 
as the path to solving the PE issue. Below are NASA's 8 key 
recommendations and the Navy's actions: 1. Measure parameters that 
directly assess human health and performance. Make measurements in the 
cabin environment whenever possible. The Navy is exploring every option 
to measure and record meaningful data in the cockpit. Several 
development efforts are ongoing in coordination with PMA-202, the 
Aircrew Systems Program Office and the Navy Bureau of Medicine and 
Surgery (BUMED) to field sensors that can directly measure human 
performance and physiological response while not being intrusive or 
interfere with cockpit duties. While human-mounted sensor technology 
matures, integration of multiple sensors in the aircraft cockpit and 
aircrew flight gear continues. One example of a newly fielded sensor is 
the SlamStick, a small pressure sensing and recording device carried in 
aircrew pockets. SlamSticks are carried on every F/A-18 and E/A-18 
sortie. Data is downloaded after flight and uploaded to a central 
database for analysis. This data has been used extensively to 
characterize and understand the cockpit environment.
    Mr. Turner. Navy leadership has consistently said physiological 
episodes are the number one safety priority within Naval Aviation as it 
is directly related to aircrew health. This Congress has consistently 
asked what it can do to help in this effort. As a result, the Budget 
Request for Fiscal Year 2018 was shaped to provide the financial 
resources required to address the issue. Can you briefly describe to 
the subcommittee what solutions are being accomplished with these 
funds?
    Admiral Joyner. To address issues in the T-45, the Navy received 
resources in FY18 in the form of additional O&M funds which are funding 
the ongoing T-45 Root Cause and Corrective Action (RCCA) 
investigations. The funds will also be utilized to fund a contract with 
the OEM (Boeing) to support the RCCA and provide Field Service 
Representatives (FSRs) at all Chief of Naval Air Training (CNATRA) T-45 
training sites. Some examples for T-45 include: Enhanced Emergency 
Oxygen System (EEOS). Maximizes the oxygen storage capacity of the 
emergency oxygen system for retrofit of the SKU-10/A (F-18) and SKU-11/
A (T-45) Seat Survival Kit Assembly. T-45 Oxygen Concentrator. 
Obsolescence issues with the T-45 OBOGS concentrator (GGU-7A), coupled 
with a need for additional reliability and safety enhancements drive a 
need for a replacement OBOGS concentrator. The GGU-25 was designed in 
2008 by Cobham and was partially tested for use with the T-45. In FY18, 
the Navy funded F/A-18 PE efforts targeting three primary areas. The 
first was to fully fund all the RCCA requirements. The RCCA is 
investigating 427 branches on the fault tree. Closure of these branches 
will require a massive data collection effort and engineering analysis. 
Below are some of the examples of RCCA efforts underway being funded by 
FY18 budget: Flight test--Multiple flight test effort are ongoing to 
collect data in support of the RCCA. The major effort is the extensive 
instrumentation of an F/A-18C to execute a flight test plan that will 
fully characterize the dynamics of the ECS and breathing gas delivery 
systems. Manned and Unmanned aircrew and life support systems testing 
(KBRWyle Brooks, San Antonio)--will test aircrew and life support 
systems using pressure chambers and centrifuge to create realistic 
operational conditions to characterize and measure performance in a 
controlled environment.
    Mr. Turner. The subcommittee understands the Navy stood up the 
Physiological Episodes Action Team (PEAT) to unify mitigation efforts 
across Naval Aviation, and address shortfalls in communication and data 
sharing between PEAT core members and external fleet stakeholders. 
While the subcommittee believes establishing the PEAT for these 
purposes makes sense for the Navy, we are interested in hearing what 
the PEAT is doing to find synergies within the Department of Defense, 
and how are these efforts being executed to find a solution?
    Admiral Joyner. Finding synergies between organizations is part of 
the PEAT charter, which did not limit the team from looking outside of 
the Department of the Navy or Department of Defense. There are several 
aspects to investigating PEs: from analysis of the aircraft, 
determining what system effects are on the human, and developing 
strategies for current and future aircraft. The PEAT has engaged a 
broad swath of internal and external partners, including subject matter 
experts from United States Air Force (USAF), National Aeronautics and 
Space Administration, Federal Aviation Administration, industry, 
academia, medical, and dive communities. In addition, we've established 
regular fleet communication to share all data and progress related to 
PEs. While investigating the aircraft, we have leveraged work that was 
done by the USAF while conducting a review of the F-22 aircraft in 
2012. Specifically, the methodology of using a Root Cause Corrective 
Action team and performing a rigorous analysis of root cause has 
enabled us to employ high-velocity learning and not repeat mistakes of 
past efforts. While determining human and physiological understanding, 
the PEAT has employed the efforts of the Naval Medical Research Unit-
Dayton (NAMRU-D) to actively research multiple topics where medical 
understanding is immature. NAMRU-D enjoys a strong partnership with the 
USAF 711th Human Performance Wing (HPW) providing complementary 
capabilities for aeromedical research while supporting cross service 
collaboration in both research and experimentation. As we continue to 
research strategies for future aircraft, it should be noted that we are 
currently developing joint solutions for two shared aircraft-the T-6 
and the F-35, and we are embedded with the Joint Program Office as well 
as the USAF's PE team, being led by Brig Gen Doorenbos. We are sharing 
information and resources, which will yield a higher quality product 
for the warfighter.
    Mr. Turner. The Chairman and Ranking Member of this subcommittee 
visited Naval Air Station Patuxent River, Maryland, on 15 September 
2017 in an effort to see firsthand what the Navy is doing to address 
physiological episodes. It was a very informative visit and impressive 
to see the number of both active duty service members and DOD civilians 
dedicated to solve the current issues affecting F/A-18 and T-45 
aircraft. As it was thoroughly described during the visit, could you 
please briefly explain to the subcommittee the processes set in place 
when a physiological event happens, how the investigative process is 
performed and what the feedback mechanism is to return findings and 
information back to the aviators?
    Admiral Joyner. Physiological Episode (PE) reporting protocol 
commences when aircrew reports physiological symptoms during or after 
flight. Safe recovery and aircrew treatment are prioritized above any 
and all data collection or reporting requirement. Aircrew are met 
plane-side by an ambulance for initial evaluation and treatment, if 
required. The data collection and reporting effort are guided by three 
Naval Safety Center forms, Parts A/B/C. Part A is used to capture the 
aircrew's narrative of the flight and PE event, mission type and 
profile, environmental conditions and self-reported aircrew symptoms. 
Part B directs the aircraft be placed in a ``down'' status and 
prescribes numerous diagnostics tests and inspections of the aircraft 
and aircrew flight gear as well as a thorough review of the aircraft 
maintenance history. Part C documents the medically relevant data 
collected during post-flight evaluation by a flight surgeon, including 
previous medical history, 24-hour physiological and human factors 
history, all post PE findings and treatment. The reporting squadron is 
assisted by the PE Rapid Response Team (PERRT). Upon report of a PE, 
the squadron's Safety Officer (or duty officer in his absence) will 
notify the cognizant Aeromedical Safety Officer (AMSO--aerospace 
physiologist), flight surgeon, and Naval Aviation Technical 
Representative or Field Service Representative. The PERRT is 
collectively responsible for ensuring all data collection and reporting 
requirements are complete. Additionally, they will assist the squadron 
in the decision to return both the aircraft and aircrew to flight. The 
data collected by the PERRT, including SlamStick cockpit pressure data, 
recorded aircraft flight data, and post-flight findings are immediately 
shared with all stakeholders for review and analysis. Ideally, there is 
enough data within the first 24 hours to provide immediate feedback to 
aircrew and the squadron on causality of the PE. In some cases, where 
more extensive testing or engineering investigation is needed, feedback 
may be delayed up to 30 days. Ultimately, PE information that is 
collected and investigated is submitted into the Naval Safety Center's 
WESS Aviation Mishap and Hazard Reporting System (WAMHRS) as a hazard 
or mishap investigation report. The hazard or mishap investigation 
report is released using WAMHRS providing a link to the report. This 
link is transmitted to safety personnel using a collection of email 
addresses called a community of interest. This provides feedback on 
evidence, analysis, causal factors and recommendations to prevent 
recurrence as well as subsequent endorsements and responses to 
recommendations in the report.
    Mr. Turner. The NASA report states that ``The Navy has not 
conducted a fleet wide survey of their F/A-18 air crew to understand 
the PE problem from the human perspective, where these physiological 
events actually occur''. Why has such a survey not been conducted?
    Admiral Joyner. The Physiological Episode Action Team, in concert 
with Naval Postgraduate School (NPS) developed and administered a 
comprehensive aircrew survey. The survey was broadly distributed 
amongst F/A-18, EA-18, and T-45 aircrew and maintainers. The survey 
concluded 02 Feb 2018. Over 1,400 responses were received, reflecting 
participation from 21.6 percent of the Fleet, which is considered 
statistically significant to provide a representative sample of Fleet 
opinion. NPS, in conjunction with the Center for Naval Analysis, are 
currently compiling and analyzing the data and results which will be 
used to inform the Root Cause Corrective Action investigation.
    Mr. Turner. The NASA report notes that the F/A-18's oxygen 
monitor--the CRU-99--does not log data, but that the plan to replace it 
with the more advanced CRU-123 was cancelled. Is that the case and if 
so why was this upgrade canceled?
    Admiral Joyner. The CRU-123 program was launched to incorporate a 
low pressure warning and data logging capability for the aircraft's 
oxygen system. Funding constraints at the time resulted in these 
requirements being allocated to a new oxygen monitor: the CRU-123. PMA-
265 spent years developing the CRU-123 for the F/A-18. Numerous 
setbacks eroded confidence in the manufacturer's ability to produce a 
product that would meet the reliability requirements for the F/A-18. 
The Navy cancelled the CRU-123 program for the F/A-18 after a lengthy 
development effort in which the CRU-123 repeatedly failed qualification 
standards and was unable to survive the harsher operating conditions 
encountered by the F/A-18 as opposed to the T-45 which has successfully 
flown with CRU-123. PEAT acknowledged the need for data logging, and 
current planning includes the installation of a limited number of CRU-
123s to assist in data collection while waiting for Cabin Pressure and 
OBOGS Monitoring System (CPOMS) development and fielding. In addition 
to needing a robust and reliable system for this critical function, the 
Navy shifted course to the CPOMS to take advantage of additional 
capabilities that could provide aircrew increased real-time in-cockpit 
situational awareness of critical life support systems' health. CPOMS 
will incorporate a digital display that will replace the current analog 
cabin pressure altimeter and provide an easy to read display of cabin 
pressure and warnings for schedule deviations of cockpit pressure, 
oxygen concentration and flow. CPOMS also has critical growth potential 
for desired features such as integrated cautions and warnings on 
current aircraft displays, and the ability to automatically perform 
actions, such as selection of emergency oxygen under certain degraded 
conditions or system malfunctions. The requirement to log critical 
OBOGS performance data is now allocated to the CPOMS and the new 
concentrator for the F/A-18, which is in development by the Aircrew 
Systems and F/A-18 and EA-18G program (PMAs-202 and 265) concentrator. 
This new approach will provide data recording on the aircraft's data 
bus, which is a significant improvement over the earlier approach to 
record it remotely on the CRU-123.
    Mr. Turner. How is the Air Force addressing physiological events, 
and onboard oxygen generation system issues with sister services?
    General Nowland. The Headquarters Air Force Unexplained Physiologic 
Event (UPE) Integration Team and the Navy's Physiological Episodes 
Action Team (PEAT), both led by General Officers, continue to work 
closely together to investigate in a complimentary manner. Together, 
they have engaged abroad range of internal and external partners, 
including subject matter experts from the Air Force and Navy, National 
Aeronautics and Space Administration (NASA), Federal Aviation 
Administration (FAA), Industry, academia, along with medical and dive 
communities to resolve these issues.
    One area where the USN and USAF are working together is in aircrew 
air quality assessment. The 711th Human Performance Wing has developed 
systems to test aircrew air quality in flight such as the real time air 
quality sensor (RTAQS) which is in-line air supply monitor that detects 
contaminants and elucidates OBOGS function. It is being used to 
baseline T-6 (USN/USAF), T-45 (USN), and F-18 (USN) aircraft and is 
also prepared for use in the F-16 (USAF). Additionally, we have 
established an OBOGS lab that allows us to replace flight conditions 
and test the performance of OBOGS to detect abnormal performance. This 
lab has been used to support both USAF and USN UPE investigations.
    Another area of collaboration is in aircrew physiological sensing. 
The 711th HPW in collaboration with industry, academia and government 
partners have developed several aircrew physiological state sensing 
systems. Some, such as VigilOx and Mask Sensing System (MASES), monitor 
inhaled and exhaled air but others assess tissue oxygen saturation, 
core temperature, heart rate, etc. VigilOx is slightly ahead of some of 
these other technologies and is undergoing verification and validation 
testing. Due to the urgency of the UPE issue, it has been flight tested 
in the T-38 (USAF) and F-18 (USN). Four devices have been delivered, 
two for testing and one each to the USAF and USN for preemptive 
operational assessments. Our end goal with this sensor development is 
to feed into an autonomous life support system that will adjust to keep 
the pilot in a physiologically safe condition.
    Finally, the 711th Human Performance Wing has a robust 
collaborative relationship with Naval Aeronautical Research Unit-Dayton 
(NAMRU-D). The 711th HPW with NMRU-D have collaborated with several 
academic, governmental, and industry partners in exploring how the 
human body responds to the unique stressors of the flight environment. 
We continue to explore such topics as hypocapnia, hyperoxia, hypobaria, 
work of breathing, contamination, pulmonary function, and environmental 
priming--all issues that may precipitate ``hypoxia-like'' symptoms. The 
711th HPW's unique location with NAMRU-D is particularly fortunate as 
this affords the two organizations to leverage each other's expertise 
and move forward as one entity on many of the research efforts.
    Mr. Turner. Why is root cause attribution to physiological events 
so difficult to ascertain?
    General Nowland. The root cause for Unexplained Physiologic Events 
(UPEs) has been difficult to ascertain, primarily due to the lack of 
in-flight cockpit sensors to verify both the content of the breathing 
gas mixtures from the oxygen system (oxygen concentration, flow, 
pressure), and the physiologic status of the aircrew (expired oxygen/
carbon dioxide levels, heart rate, respiratory rate, blood oxygen 
saturation). Such sensors are currently in development and will be able 
to objectively determine the root cause of physiologic events by 
measuring these variables and characterizing the integration between 
the human, the cockpit environment, and aircrew flight equipment. Until 
such sensors are in place, investigations to assess the cause of UPEs 
must resort to modeling human physiological response based on 
extrapolated assumptions of aircraft system performance as gas 
delivery, rather than the actual data itself. In addition to the lack 
of sensors, the extremely low rate of UPEs makes it difficult to 
identify trends which could be used to indirectly identify possible 
root cause of these events.
    The two principal means to mitigate the hazards associated with 
high altitude flight are to provide increased concentrations of oxygen 
in aircrew breathing gas mixtures (to prevent hypoxia), and to 
pressurize cockpits to prevent adverse effects associated with a 
hypobaric environment. In modern aircraft, cockpit pressurization is 
provided by engine bleed air supplied to the Environmental Control 
System (ECS). Oxygen for the breathing gas mixture comes from either a 
Liquid Oxygen Supply or an ``On-Board Oxygen Generating System (OBOGS), 
which also uses engine bleed air to supply breathing gas to aircrew. 
The non-specific nature of UPE symptoms (e.g., lightheadedness, 
headache, confusion) and the complexity of the interaction between the 
oxygen system, aircrew flight equipment, and the aircrew, makes it 
challenging to identify the root cause of many Pes.
    Current aircrew monitoring systems undergoing testing and 
evaluation at the 711th Human Performance Wing include, Canary, 
VigilOx, physiologic health status of isolated personnel (PHYSIO), and 
mask sensing system (MASES).
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. TSONGAS
    Ms. Tsongas. The committee has been examining the issue of elevated 
PE rates in F-18 aircraft for more than two years. Throughout that 
time, we have been told that improvements to the GGU-12 onboard oxygen 
generation system were an important part of reducing the risks of such 
events. As a result, I was troubled by several things the NASA report 
had to say about this specific piece of critical equipment on F-18s. 
First, in paragraph 10.2.2 the report states that ``The first and most 
significant thing to note about the GGU-12 is the disconnect between 
best practices of pressure swing absorption systems and operating 
conditions of the GGU-12 . . . Best engineering practices for effective 
gas separation using PSA is constant conditions. [However], the GGU-12 
is fully dynamic--nothing about the GGU-12 is constant.'' The report 
further states that ``The GGU-12 is tested in the lab and in the field 
with clean, dry air with a fixed flow rate and fixed inlet pressure. 
This does not match any actual operating conditions. The GGU-12 testing 
program does not adhere to the best practice summarized by `fly what 
you test and test what you fly'.''
    Finally, the report's finding 10-1 has this to say about the 
underlying design standards for the GGU-12: ``The NESC team found 
evidence that traced the oxygen peak flow rate requirement to outdated 
information from the 1960s, which apparently neglected to address newer 
information on pilot breathing demands document in Navy TM-93-59-SY. 
The GGU-12 OBOGS maximum performance requirement does not meet human 
system demand requirements for flow and oxygen concentration during all 
phases of flight.'' Does the Navy have a plan to upgrade the OBOGS 
system in the F-18? What is the schedule? Is there a cost estimate? 
When would fielding commence and be complete? When will Navy OBOGS 
systems in F-18s meet the updated military specifications published in 
2015?
    Admiral Joyner. NASA is correct that best practices for a Pressure 
Swing Adsorption (PSA) technology is to maintain constant operating 
conditions. While this practice is well suited for a stationary 
industrial air separation plant, it certainly presents a challenge for 
an advanced high altitude all weather fighter aircraft operating in 
extreme conditions. The F/A-18 OBOGS actually represents a significant 
step forward in the maturation of supply air integrity and stability. 
The F/A-18 was the first fighter attack aircraft to move the bleed air 
supply from a direct engine bleed port where the temperature and 
pressures vary widely, to a diversion off of the aircraft's 
Environmental Control System (ECS) where the temperature, pressure, and 
water content of the air supply is significantly more stable. The F/A-
18 was also first to introduce a redundant bleed air route that 
continues to provide source air to the OBOGS in the event of an ECS 
failure. Finally, the GGU-12 was fully qualified across environmental 
conditions which include bleed air temperatures ranging from -15 to 
+250F and in ambient temperatures from -65 to +160F. In actuality, the 
GGU-12 as installed in the F/A-18 receives conditioned air from the ECS 
that are well within these design parameters. Regarding testing, NASA 
is confusing routine performance checks with qualification testing. The 
GGU-12 was fully qualified against robust temperature and pressure 
extremes that exceed the actual environment in which it operates. 
Decades of reliable performance would attest to this assertion as well 
as more recent checks conducted to support the Root Cause Corrective 
Action (RCCA) investigation. It is true that many of the performance 
checks conducted by the fleet are performed at ground level using 
hangar air with flow conditions that are not reflective of aggressive 
flight. However, it is incorrect to assume that these conditions are 
inadequate to identify a failing system. It is noteworthy that the U.S. 
Navy is the only service that performs routine testing of the OBOGS for 
prognostic health monitoring. This test, which is performed on the 
aircraft every 84 days is designed to catch a failing OBOGS before it 
results in an aborted flight or physiological event. This comprehensive 
system test checks the system's ability to produce oxygen, the health 
of the sieve beds, the timing circuits, the accuracy of the low oxygen 
warning sensor, the oxygen plumbing integrity, and the ability of the 
system to enunciate failure conditions. In addition, the GGU-12 is 
removed from the aircraft every 400 flight hours for a more stringent 
off-aircraft test. This approach is in compliance with MIL-STD-3050. It 
is fair to say, however, that there is a dearth of information across 
the services and our international partners regarding the life and 
longevity of an OBOGS. The validity of the pass/fail criteria used by 
the Navy is being validated under a surveillance program to better 
understand the natural degradation in OBOGS. To date, none of the 28 F/
A-18 or 28 T-45 aircraft that have undergone this very demanding test 
have shown significant degradation in their molecular sieve or carbon 
monoxide catalyst. NASA is also incorrect in applying the 
recommendation of Navy TM-93-59-SY to the GGU-12 oxygen concentrator. 
The intent of TM-93-59-SY was to establish dynamic breathing 
requirements for OBOGS plumbing and breathing regulators. The F/A-18 
OBOGS plumbing is designed to absorb the pneumatic shocks and cyclic 
flow demands of human breathing. It does this by using a 100 cubic inch 
plenum for each cockpit. The size of the plenum and the diameter of the 
oxygen plumbing are designed to maintain the oxygen pressure at the 
pilot's breathing regulator so that it performs well. Thousands of data 
files from F/A-18 and EA-18G operations using pilot monitoring 
equipment have confirmed that there is more than adequate supply 
pressure being provided at the pilot's breathing regulator to meet 
human system demand requirements. The primary shortcomings of the GGU-
12 center on the lack of oxygen concentration control and the lack of 
recorded data. Both of these requirements are new since the CY2015 
release of MIL-STD-3050. PMA-265 and PMA-202 are developing a new 
concentrator for the F/A-18 that will address these issues.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. GAETZ
    Mr. Gaetz. I understand that many in the military and aerospace 
communities feel that the reasons for the physiological events plaguing 
military aviation are mechanical. However, in light of the continuing 
problems with hypoxia in our front-line fighter and training aircraft, 
has anyone within your respective Services collaborated with academic 
institutions with known expertise in human performance and aerospace 
physiology/medicine. Has that option been talked about or explored in 
any way?
    Mr. Cragg. We believe this question is better answered by both the 
U.S. Navy and the U.S. Air Force.
    Mr. Gaetz. I understand that many in the military and aerospace 
communities feel that the reasons for the physiological events plaguing 
military aviation are mechanical. However, in light of the continuing 
problems with hypoxia in our front-line fighter and training aircraft, 
has anyone within your respective Services collaborated with academic 
institutions with known expertise in human performance and aerospace 
physiology/medicine. Has that option been talked about or explored in 
any way?
    Admiral Joyner. Yes, Navy is actively engaging with academia. The 
Johns Hopkins University Applied Physics Laboratory will assist in 
contaminant evaluation of the collected Hydrocarbon Detectors and 
Sorbent Tube Adapters. The Naval Air Systems Command (NAVAIR) 
Educational Partnership Program will be hiring a PhD Chemist from St. 
Mary's College to assist in PE efforts. Also, NAVAIR AIR-4.6 has hired 
Aeromedical experts to consult on the review of PEs in the Aviation 
Environment Scientific Advisory Board. Stanford University's ``Hacking 
4 Defense'' will start working on this problem in April 2018. This is a 
no-cost collaboration with graduate and undergraduate students who will 
look at the OBOGS-Hypoxia linkage with a naive/fresh set of eyes. 
Members of the team will be from disciplines that include pre-med, 
computer science, engineering, etc. Stanford University has recently 
done work with the U.S. Navy to include proposals to prevent/reduce PEs 
with Special Warfare SEAL Delivery Vehicle drivers caused by multiple 
ascents/descents during long missions.
    Mr. Gaetz. I understand that many in the military and aerospace 
communities feel that the reasons for the physiological events plaguing 
military aviation are mechanical. However, in light of the continuing 
problems with hypoxia in our front-line fighter and training aircraft, 
has anyone within your respective Services collaborated with academic 
institutions with known expertise in human performance and aerospace 
physiology/medicine. Has that option been talked about or explored in 
any way?
    General Nowland. The Air Force remains committed to solving 
unexplained physiologic events across the fighter and training 
aircraft. Academic institutions play a vital role in helping understand 
the role of human factors in physiologic episodes. The 711th Human 
Performance Wing (HPW), the Air Force's aeronautical research facility, 
with Naval Medical Research Unit--Dayton (NAMRU-D) have collaborated 
with several academic institutions like Case Western Reserve 
University, Norwegian University of Science and Technology, and the 
University of Notre Dame in exploring how the human body responds to 
the unique stressors of the flight environment. We continue to explore 
such topics as hypocapnia, hyperoxia, hypobaria, work of breathing, 
contamination, pulmonary function, and environmental priming--all 
issues that may precipitate ``hypoxia-like'' symptoms.
    The Air Force continually explores additional options to 
collaborate with other academic institutions to leverage their 
expertise in contribution to help better understand the problem space. 
Institutions like Embry-Riddle Aeronautical University have specialized 
expertise the Air Force can leverage to help identify human errors 
associated with physiologic episodes; provide data-driven 
recommendations for addressing human error; and recommend improvements 
for current human factors data collection.

                                  [all]


</pre></body></html>
